No. _________

In The

Supreme Court of the United States
DAVINCI AIRCRAFT, INC.

Petitioner,

V.

UNITED STATES OF AMERICA, ET AL.,

Respondents,

ON PETITION OF WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
ABRAHAM R. WAGNER
Counsel of Record
CHARLES NICHOLAS ROSTOW
LAW OFFICE OF ABRAHAM WAGNER
1875 Century Park East, Suite 700
Los Angeles, CA 90067-3301
(310) 552-7533

abraham.wagner@gmail.com
Counsel for Petitioner

i
QUESTIONS PRESENTED FOR REVIEW
1.
Does the exception for forfeitures
created by the Civil Asset Forfeiture Reform Act of
2000 (CAFRA), Pub. L. No. 106-185, § 3, 114 Stat. 202
for property “seized for the purpose of forfeiture”
apply to goods seized in violation of the Fourth
Amendment?
2.
Does the CAFRA exception and the
“detention of goods” exception to the Federal Tort
Claims Act, 28 U.S.C. § 26801(h) bar the district court
from exercising subject matter jurisdiction barring
such claims when a Federal government agency’s
“discretionary action” is based on an allegedly false
and fraudulent claim that the goods are “classified”
and subject to security controls that would involve
criminal liability under the Espionage Act, 18 U.S.C.
§ 793(d)?
3.
Can the district court’s denial of a
request for leave to file an amended complaint
naming additional individual defendants, unknown
at the time of filing but named as Does 1-10,
invalidate the claim under Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403
U.S. 388 (1971)?

ii
PARTIES TO THE PROCEEDING
DaVinci Aircraft, Inc., Petitioner
United States of America; Michael Christmas,
individual and official capacity; Rodney Lewis,
individual and official capacity; Joel S. Russell,
individual and official capacity; Does 1 through 10
inclusive, Respondents.
RULE 29.6 STATEMENT
DaVinci Aircraft, Inc., has no parent or subsidiary
corporation. No publicly held company owns any of
its stock.
RELATED CASES
•

DaVinci Aircraft, Inc. v United States of America
et al., U.S District Court for the Central District of
California, No, 2:16-cv-5864, Judgment entered
April 25, 2017.

•

DaVinci Aircraft, Inc. v United States of America
et al., No. 17-55719, U.S .Court of Appeals for the
Ninth Circuit, Judgment entered June 12, 2019.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW ............ i
PARTIES TO THE PROCEEDING ......................... ii
RULE 29.6 STATEMENT........................................ ii
RELATED CASES ................................................... ii
TABLE OF CONTENTS ......................................... iii
TABLE OF AUTHORITIES

............................ v

OPINIONS BELOW................................................. 1
JURISDICTION ...................................................... 1
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED................................. 2
INTRODUCTION ................................................... 5
STATEMENT OF THE CASE ................................. 7
REASONS FOR GRANTING THE WRIT............. 16
THIS COURT SHOULD GRANT REVIEW OF
THE COURT OF APPEALS’ DECISION
BECAUSE IT IS INCONSISTENT WITH
SUPREME COURT PRECEDENTS WITH
RESPECT TO THE WAIVER OF SOVEREIGN
IMMUNITY, DETENTION AND FORFEITURE
EXCEPTIONS TO THE FEDERAL TORT
CLAIMS ACT, AND DENIES THAT A VALID
BIVENS CLAIM BE HEARD IN FEDERAL
DISTRICT COURT ................................................ 16
A.

Petitioner Has a Right to Have Its
Claims Heard in Federal District Court
Under Both Statute and Case Law .......... 16

iv
Page
B.

This Court Should Grant Certiorari in
Order to Insist on Proper Application
of the Civil Asset Forfeiture Reform
Act of 2000 ....................................... ............25

C.

This Court Should Grant Certiorari to
recognize Petitioner’s Valid Bivens Claim
as the District Court Failed to Grant a
Request for Leave to File an Amended
Complaint Naming Additional
Individual Defendants ................................ 26

CONCLUSION ....................................................... 38
APPENDIX
Opinion, United States Court of Appeals for the
Ninth Circuit, June 12, 2019...................... App. 1
Order Granting United States’ Motion to Dismiss,
United States District Court for the Central
District of California, April 25, 2017 ....... App. 24

v
TABLE OF AUTHORITIES

Page

CASES
Aleutco v. United States,
244 F.2d (3rd Cir. 1957) ......................................18
Ali v. Fed. Bureau of Prisons,
552 U.S. 214 (2008)..............................................13
Anoushiravani v. Fishel,
No. 04-cv-212-MO 2004 WL 1630240
(D. Or. 2004).........................................................33
Ashcroft v. Iqbal,
556 U.S. 662 (2009). .............................................36
AST/Servo Sys., Inc. v. United States,
196 Ct. Cl. 150 (1971) ..................................8,17,23
Bivens v. Six Unknown Named Agents of
Federal Bureau of Narcotics,
403 U.S. 388 (1971) ............................i,11,21,23,27
Carlson v. Green,
446 U.S. 14 (1980)...................................... 22,27,30
Chappell v. Wallace,
462 U.S. 296 (1983).................................... 26,31,37
CHoPP Computer Corp. v .United States,
5 F.3d 1344 (9th Cir. 1993)..................................20
Crane v. United States, 2016 WL 6575093
(Fed. Cir. Nov., 7, 2016)......................................19
Davis v. Passman,
442 U.S. 228 (1979)......................... 27,29,30,31,36
Diaz v. United States,
517 F.3d 608 (2nd Cir. 2008) ...............................21

vi
Page
Dubin v. United States,
153 Ct. Cl. 550 (1961) .....................................17,23
Dubin v. United States,
176 Ct. Cl. 702 (1966) .....................................17,23
Foster v. United States,
522 F.3d 1071 (9th Cir. 2008).................... 13,20,21
Gasho v. United States,
39 F.3d 1420 (9th Cir. 1994)................................13
Int’l Air Response v. United States,
75 Fed. Cl. 604 (2007) .....................................17,23
Kam-Almaz v. United States,
682 F.3d 1364 (Fed. Cir. 2012) ............................19
Keene Corp. v. United States,
508 U.S. 200 (1993)..............................................19
Kosak v. United States,
465 U.S. 848 (1984)..............................................13
Lane v. Penna,
518 U.S. 187 (1996)..............................................16
Loughlin v. United States,
286 F.Supp.2d 1 (D.D.C. 2003) ............................24
Love v. United States,
915 F.2d 1242 (9th Cir. 1989)..............................19
McCarthy v. United States,
850 F.2d 558 (9th Cir. 1988)................................13
Microsoft Corp. v. ATech Corp.,
855 F. Supp. 308 (C.D. Cal 1994) ........................19
Millbrook v. United States,
569 U.S. 50 (2013)..........................................14,27

vii
Page
Shavesteh v. Raty,
404 F.App 298 (10th Cir. 2010) ............................20
Smoke Shop LLC v. United States,
761 F.3d 779 (7th Cir. 2014)...........................13,21
United States v. Stanley,
483 U.S. 669 (1987).................................... 26,31,37
Ziglar v. Abbasi,
582 U.S. ___, 137 S. Ct. 1843 (2017) .... 27,28,29,30
STATUTES
Civil Asset Forfeiture Reform Act of 2000 (CAFRA),
28 U.S.C. § 1367 .....................................i,2,14,20,25
Espionage Act, 18 U.S.C. § 793 ..............i,2,3,10,17,29
Federal Tort Claim Act (FTCA),
28 U.S.C. § 2671 .....................................i,1,3,5,7,16
Tucker Act, 28 U.S.C. § 1491 ............... 3,6,14,11,27,33
18 U.S.C. § 983(c) ......................................................20
28 U.S.C. § 1254(1)......................................................1
28 U.S.C. § 1346(b)(1) ...............................................19
28 U.S.C. § 2680(a)................................ 13,19,20,24,25
28 U.S.C. § 2680(c). ...................................................20
28 U.S.C. § 2680(h). ..................................................12
EXECUTIVE ORDERS
Executive Order 12829 (Federal Register, Vol. 58,
No. 240)....................................................................7

viii
Page
Executive Order 13526 (Federal Register, Vol. 75,
No. 2)................................................................5,4,22
UNITED STATES CONSTITUTION
U.S. CONST. Amend IV .......................... 1,4,7,25,26,35
U.S. CONST. Amend V ................. 1,4,7,14,25,26,31,33
FEDERAL RULES OF CIVIL PROCEDURE
Federal Rule of Civil Procedure 12(b)(1) ............11,12
Federal Rule of Civil Procedure 12(b)(6) .................11
OTHER AUTHORITIES
Air Force Instruction 16-701, “Management
Administration and Oversight of Special Access
Programs” (18 February 2014) .................................21
Amar, Ahkil Reed. "Fourth Amendment First
Principles."
107 HARVARD L. REV. 757 (1994). ........................26
Amsterdam, Anthony G. "Perspectives on the Fourth
Amendment."
58 MINNESOTA L. REV. 349 (1974). ......................26
Department of Defense, DoD 5220.22-M, National
Industrial Security Program, Manual for
Safeguarding Classified Information ....................7,21
Hubbard, Phillip A., MAKING SENSE OF SEARCH AND
SEIZURE LAW, FOURTH AMENDMENT HANDBOOK,
(2nd ED.)(2015), ........................................................26

ix
Page
LaFave, Wayne R., SEARCH AND SEIZURE: A
TREATISE ON THE FOURTH AMENDMENT (5TH ED.) .....26
Security Guidance for Special Access Program
SENIOR RODEO ...................................................7
Stuntz, William J., “Warrants and Fourth
Amendment Remedies."
77 Virginia LAW REVIEW 881 (1991) ....................26
Wasserstrom, Silas J. and Louis Michael Seidman,
"The Fourth Amendment as Constitutional Theory."
77 GEORGETOWN LAW JOURNAL (1988) ................26

1
PETITION FOR A WRIT OF CERTIORARI
DaVinci Aircraft, Inc., respectfully petitions for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Ninth Circuit in this
case.
OPINIONS BELOW
The published opinion of the United States Court
of Appeals for the Ninth Circuit (June 12, 2019) and
is found at Appendix, App. 1. The order of the United
States District Court for the Central District of
California granting the United States’ Motion to
Dismiss (April 25, 2017) is found at Appendix, App.
24.
JURISDICTION
Petitioner seeks review of the judgment of the
United States Court of Appeals for the Ninth Circuit
entered pursuant to 28 USC § 1254(1). The Ninth
Circuit’s published opinion was filed on June 12,
2019.
The District Court had subject matter pursuant
to the Federal Tort Claims Act (FCTA) and pursuant
to the U.S. Constitution because the complaint
alleged violations of the Petitioner’s rights under the
FCTA as well as the Fourth and Fifth Amendments
to the Constitution.

2
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED
This case involves interpretation of the following
statutes and Constitutional provisions:
1. Civil Asset Forfeiture Reform Act of 2000
(CAFRA), Public Law 106-185.
(2) Seizures pursuant to this section shall be
made pursuant to a warrant obtained in the
same manner as provided for a search
warrant under the Federal Rules of Criminal
Procedure, except that a seizure may be made
without a warrant if— ‘‘(A) a complaint for
forfeiture has been filed in the United States
district court and the court issued an arrest
warrant in rem pursuant to the Supplemental
Rules for Certain Admiralty and Maritime
Claims; ‘‘(B) there is probable cause to believe
that the property is subject to forfeiture and—
‘‘(i) the seizure is made pursuant to a lawful
arrest or search; or ‘‘(ii) another exception to
the Fourth Amendment warrant requirement
would apply
2. Espionage Act, 18 U.S.C. § 793(d)
(d) Whoever, lawfully having possession of,
access to, control over, or being entrusted with
any document, writing, code book, signal
book, sketch, photograph, photographic
negative, blueprint, plan, map, model,
instrument, appliance, or note relating to the
national defense, or information relating to
the national defense which information the
possessor has reason to believe could be used

3
to the injury of the United States or to the
advantage of any foreign nation, willfully
communicates, delivers, transmits or causes
to be communicated, delivered, or transmitted
or attempts to communicate, deliver, transmit
or cause to be communicated, delivered or
transmitted the same to any person not
entitled to receive it, or willfully retains the
same and fails to deliver it on demand to the
officer or employee of the United States
entitled to receive it.
3. Federal Tort Claims Act, 28 U.S.C. § 1346
Subject to the provisions of chapter 171 of this
title, the district courts, together with the
United States District Court for the District
of the Canal Zone and the District Court of the
Virgin Islands, shall have exclusive
jurisdiction of civil actions on claims against
the United States, for money damages,
accruing on and after January 1, 1945, for
injury or loss of property, or personal injury
or death caused by the negligent or wrongful
act or omission of any employee of the
Government while acting within the scope of
his
office
or
employment,
under
circumstances where the United States, if a
private person, would be liable to the claimant
in accordance with the law of the place where
the act or omission occurred.
4. Tucker Act, 28 U.S.C. § 1491
(b)(1) Both the United States Court of
Federal Claims and the district courts of the

4
United States shall have jurisdiction to
render judgment on an action by an interested
party objecting to a solicitation by a Federal
agency for bids or proposals for a proposed
contract or to a proposed award or the award
of a contract or any alleged violation of statute
or regulation in connection with a
procurement or a proposed procurement. Both
the United States Court of Federal Claims
and the district courts of the United States
shall have jurisdiction to entertain such an
action without regard to whether suit is
instituted before or after the contract is
awarded.
5. Fourth Amendment to the United States Constitution
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or
things to be seized.
6. Fifth Amendment to the United States Constitution
No person shall be held to answer for a
capital, or otherwise infamous crime, unless
on a presentment or indictment of a grand
jury, except in cases arising in the land or
naval forces, or in the militia, when in actual
service in time of war or public danger; nor
shall any person be subject for the same
offense to be twice put in jeopardy of life or

5
limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be
deprived of life, liberty, or property, without
due process of law; nor shall private property
be taken for public use without just
compensation.

INTRODUCTION
This case presents the Court with an important
issue of jurisdiction related to Section 2680(c) of the
Federal Tort Claims Act (FTCA), and the efforts by
both this Court and the Congress in the Civil Asset
Forfeiture Reform Act of 2000 to deal with exceptions
and exceptions to exceptions to the FTCA. Goods in
the lawful possession of Petitioner (“DaVinci”) were
seized by federal agents without warrant following
unsuccessful efforts by the Air Force to repurchase
them. The Air Force relies on a belated, post hoc
claim that the goods in question – antennas for the
JASSM missile system – which they sold as
unclassified surplus “junk” in 2013 were in 2017 now
classified and related to national defense. 1 DaVinci
maintains that the Air Force’s belated claim of
classification is entirely a farce, a violation of two

As noted infra, the antennas were originally manufactured as
unclassified hardware. Petitioner is unable to find a Federal
case in any jurisdiction dealing with the post hoc classification
of hardware. Accordingly, this would be a case of first
impression on the issue.
1

6
Presidential Executive Orders, and simply a means to
avoid the legitimate procurement process. 2
The district court relied on what DaVinci believes
to be false and fraudulent representations by the Air
Force to support an improper application of the
Espionage Act (18 U.S.C. 793(d)) used in the seizure
of DaVinci’s goods. Sustaining the dismissal of the
case on jurisdictional grounds, the Ninth Circuit
Court of Appeals applied interpretations of the terms
“detention” and “forfeiture” that are inconsistent with
both prior decisions of this Court and the facts of the
instant case. Both the district court and the Ninth
Circuit failed to recognize the concurrent jurisdiction
of the district court in such cases under the Tucker
Act (28 U.S.C. § 1491).

In particular, Executive Order 13526 (2009) “prescribes a
uniform system for classifying, safeguarding, and declassifying
national security information” and states in pertinent part (Sec.
1.7) “in no case shall information be classified, continue to be
maintained as classified or fail to be declassified in order to (1)
conceal violations of law, inefficiency, or administrative error; (2)
prevent embarrassment to a person, organization, or agency; (3) restrain
competition; or (4) prevent or delay the release of information that does
not require protection in the interest of the national security.”
2

7
STATEMENT OF THE CASE
In March 2013, Lockheed Martin, at the request
of the U.S. Air Force, offered for sale to the public ten
unclassified JASSM GPS antennas (“antennas”) that
the Air Force identified as “surplus,” “obsolete,” and
“junk” and which ultimately were purchased by
Petitioner DaVinci Aircraft, Inc (“DaVinci”). 3
Manufactured as unclassified hardware, the
antennas were never subject to the extensive security
requirements that would have applied to classified
hardware. 4 DaVinci purchased the antennas in July
2013 and subsequently advertised them for resale on
the unrestricted surplus parts market.
Prior to January 2017, no government official
indicated that the antennas were or had ever been
classified hardware or related to national security,
and at no time did the Air Force seek to impose the
government-mandated requirements for classified
hardware on DaVinci despite the fact that they were
fully aware that the antennas, subsequently alleged
to be “classified hardware” were DaVinci’s lawful
possession, and not subject to any security controls for
The antennas were originally manufactured by Ball Aerospace
under a subcontract from Lockheed Martin and sold as part of a
bulk sale of surplus parts, ultimately to DaVinci on July 31,
2013.

3

4 These include Executive Order 12829; Executive Order 13526;
DoD 5220.22-M, “National Industrial Security Program, Manual
for Safeguarding Classified Information,” and supplemental
security guidance for Special Access Program SENIOR RODEO.
These mandatory security requirements were not part of the Air
Force procurement of the antennas.

8
well over a year. 5 At no point did any Air Force official
contact DaVinci about the now purportedly “classified
hardware” in DaVinci’s possession. 6
DaVinci has never maintained approved secure
storage, and at no time prior to their seizure did the
Air Force seek to move the antennas to secure
facilities where they would be protected from
potential access by adversaries. Such practice would
have been required standard practice had the
antennas been classified material. 7
On September 17, 2013, Air Force Office of
Special Investigation (AFOSI) agents came to
5 The Air Force never alleged that there was a “mistake” or that
the antennas were ever manufactured as classified hardware,
contrary to language in the Ninth Circuit’s opinion. Compare,
AST/Servo Sys., Inc. v. United States, 196 Ct. Cl. 150 (1971),
where the goods were manufactured as classified hardware and
the Government acknowledged a mistake had been made in their
sale.

In support of their initial motion to dismiss, the United States
(the “Air Force”) offered the declaration of Martin D.
Hemmingsen stating that “embedded features of the JASSM
GPS antennae” are “classified at the SECRET and
SECRET//SPECIAL ACCESS REQUIRED level” and that their
disclosure could provide adversarial nations with critically
protected information.” This belated assertion flies in the face
of the fact that the Air Force sold these unclassified antennas as
“junk” and for over a year failed to make any effort to secure of
control this material in accordance with mandated security
guidance.
6

Such actions would be mandatory under the Executive Orders
and DoD instructions cited (See fn 2 supra), which is one reason
Petitioner avers that the Air Force claim of classification was
false and fraudulent.
7

9
DaVinci’s facility for the stated purpose of
“inspecting” the antennas and to discuss their
purchase. 8 After inspecting the antennas, the agents
demanded that DaVinci surrender them without any
warrant, court order, or paperwork of any kind.
DaVinci refused to surrender the antennas as
demanded. 9 The agents then asked DaVinci for a
quotation for their purchase price, were informed
that the price for the antennas was $125,000 each,
and then departed.
Some six months later (April 2014) DaVinci
responded to a request from the Air Force Contracting
activity at Eglin Air Force Base and provided a price
quotation for sale of the antennas in the amount of
$75,000 each. What followed were extended contract
negotiations with Air Force Contracting Officer Capt.
Rodney Lewis, by email and telephone, over the price
for the antennas. DaVinci and the Air Force failed to
reach an agreement on price for the sale. 10
The AFOSI agents did not state that the antennas were
classified hardware or required controls as such to prevent
national security information from falling into the hands of
potential adversaries.
8

DaVinci’s attorney was present and informed the AFOSI agents
that they had no legal grounds for taking the antennas.

9

The district court record on these negotiations which
continued over several months is accurate. Apparently, the Air
Force which had sold the antennas as surplus “junk” and of no
value, now required them as spare parts. At no point was any
mention made of their being “sensitive” or classified. Lewis’
statement during the negotiations that the antennas were “no
good” does not appear to reflect a belief on the part of the Air
Force that they were classified hardware in need of protection
10

10
Having failed in their contractual effort to
repurchase the antennas, the Air Force again sent
AFOSI agents to DaVinci’s facility in September 2014
demanding that they surrender the antennas under
compulsion of law. 11 The agents presented DaVinci
with a letter purportedly authorizing the Air Force to
take possession of the antennas and threatening
criminal action under 18 USC § 793(d) (the Espionage
Act). 12 When the AFOSI agents seized the antennas,
DaVinci’s lawful property, they had no warrant
issued by any judge or magistrate as required under
the Fourth Amendment. Pursuant to the demands
and threats made by the AFOSI agents DaVinci
surrendered the antennas.
Following their seizure DaVinci invoiced the Air
Force for the antennas. When the invoice was ignored
DaVinci notified the Air Force, Office of Special
Investigations, of a claim under the Federal Tort
Claims Act (FTCA) (March 2015), requesting an
Administrative Claim for Damages, which was then
properly filed with the Dept. of the Army, Claims Div.,
from adversary nations.
AFOSI agent Joel Russell stated that the Air Force was
authorized to and intended to take possession of the antennas,
and at no point was there any indication that the antennas were
classified hardware.
11

This letter, dated September 23, 2014, was signed by Special
Agent in Charge of the Air Force Office of Special Investigations
Michael Christmas and is referred to at various times in the
pleadings as the “Christmas letter.” The letter threatened
DaVinci with criminal prosecution under the Espionage Act (18
U.S.C. § 793(d)) but did not indicate DaVinci had violated the
statute in any way.
12

11
Office of Staff Judge Advocate, as directed by the Air
Force. While the Government acknowledged receipt
of DaVinci’s claim, it was never paid.
On August 5, 2016, DaVinci filed its complaint in
Federal District Court, Central District of California,
against the United States, as well as several known
individuals alleging conversion; seizure of property in
violation of the Fourth Amendment (Bivens action), 13
deprivation of property without due process in
violation of the Fifth Amendment, conspiracy and
abuse
of
process,
fraud,
and
negligent
14
misrepresentation.
In support of its abuse of process and conversion
claims, DaVinci alleged that the United States and its
agents conspired fraudulently and wrongfully to
coerce DaVinci to surrender the antennas to the Air
Force without due process or just compensation.
The United States filed a motion to dismiss
DaVinci’s claim pursuant to Federal Rules of Civil
Procedure Rule 12(b)(1) and 12(b)(6) on November 28,
2016, and the district court granted the United States’
motion, giving DaVinci 21 days in which to file an
amended complaint. 15
Bivens v. Six Unknown Named Agents of Federal Bureau of
Narcotics, 403 U.S. 388 (1971).

13

DaVinci’s initial complaint against the United States included
two known individuals – Michael Christmas and Rodney Lewis- as well as other individuals (Does 1-10) whose identities were
not known at the time. The First Amended Complaint (FAC)
added another individual whose identity had subsequently
become known.
14

15

Along with its motion to dismiss, the United States attached

12
DaVinci filed its First Amended Complaint
(“FAC”) with the district court, and the United States
again moved the district court to dismiss the FAC on
jurisdictional grounds under Federal Rules of Civil
Procedure Rule 12(b)(1). On April 17, 2017, the
district court held oral argument on the motion to
dismiss, and DaVinci sought leave from that court
further to amend the complaint to add additional
individuals whose identities had become known as
part of its Bivens claim. The district court took the
matter under submission and did not grant the leave
to amend the FAC to add additional individual
defendants.
On April 25, 2017, the district court issued its
opinion (App. 24) granting the United States’s motion
to dismiss. The district court held that the waiver of
sovereign immunity provided in 28 U.S.C. §
1346(b)(1) was not applicable due to the bar provided
in 28 U.S.C. § 2680(h) that the “detention exception”
to this statute was not applicable due to the so-called
“forfeiture exception” to the detention exception.
Petitioner avers that the district court based its
conclusion on misreadings of cases cited in the opinion
and in accepting at face value the fraudulent
representations by the Air Force that the antennas
as an exhibit a letter from an Air Force official, Martin
Hemmingsen and an attachment which, for the first time
(January 2017), asserted that the antennas contained sensitive
features that would make them SECRET as well as subject to
the Air Force Special Access Program SENIOR RODEO. At no
point has the United States ever sought to explain how this
hardware, manufactured as unclassified and subsequently sold
as surplus “junk” in 2013 suddenly became classified in 2017.

13
were related to national security and properly seized
pursuant to the Espionage Act (18 U.S.C. § 793(d)). 16
The district court further dismissed DaVinci’s
claims on constitutional grounds for lack of
jurisdiction because DaVinci had “failed to direct the
court to a source of jurisdiction” (App. 41). The
district court’s conclusion is inconsistent with the
pleadings in the case.
Relying on the 2014 “Christmas letter” and the
2016 declaration of Air Force official Martin
Hemmingsen, filed by the United States in January
2017 as an attachment to their motion to dismiss, the
district court noted that it could not review the Air
Force’s decision to classify the antennas as relating to
the national defense because such classification was
a discretionary decision, triggering the “discretionary
function” bar under 28 U.S.C. § 2680(a).
The district court did not permit discovery in this
matter, and did not accept DaVinci’s argument that
the Air Force’s belated Hemmingsen declaration was
totally inconsistent with established Government
procedures, and at best was a fraudulent farce
undertaken some four years after the fact to conceal a
failed procurement and unlawful seizure. The district
court endorsed the government’s engagement in bait
and switch, and the Ninth Circuit concurred.

The district court cites Kosak v. United States. 465 U.S. 848
(1984); Ali v. Fed. Bureau of Prisons. 552 U.S. 214 (2008); Foster
v. United States. 522 F.3d 1071 (9th Cir. 2008); and Gasho v.
United States. 39 F.3d 1420 (9th Cir. 1994). See also McCarthy
v. United States. 850 F.2d 558 (9th Cir. 1988) and Smoke Shop
LLC v. United States. 761 F.3d 779 (7th Cir. 2014).
16

14
DaVinci appealed the decision of the district court
to the Ninth Circuit Court of Appeals (App. 1) on the
basis of several errors in district court’s opinion,
largely related to a misinterpretation of the forfeiture
exception to the detention exception to the FTCA and
a failure to recognize the prior holding of this Court
in Millbrook v. United States. 569 U.S. ___ (2013)
waiving sovereign immunity for the Government for
intentional torts committed by law enforcement
officers. 17
The Ninth Circuit held that DaVinci’s claim was
barred by section 2680(c) of the FTCA, the “detention
exception,” and that the exception applied even
though the antennas were permanently, rather than
temporarily, detained, and applied whether or not the
property was seized as a part of a criminal
investigation.
The Ninth Circuit further held that because the
antennas were not seized “solely” for the purpose of
forfeiture, the Civil Asset Forfeiture Reform Act of
2000 (CAFRA) did not re-waive sovereign immunity
to allow DaVinci’s claim. Further, the Ninth Circuit
also held that DaVinci could proceed in the Court of
Federal Claims under the Tucker Act through a
takings claim under the Fifth Amendment but failed
to recognize that this same Act (28 U.S.C. § 1491)
provides concurrent jurisdiction to the district courts.

In denying jurisdiction in the matter, both the district court
and the Ninth Circuit also failed to recognize the provision of the
Tucker Act (28 U.S.C. § 1491) providing concurrent jurisdiction
to the district courts and the Court of Federal Claims in matters
involving “a statute or regulation in connection with a
procurement or a proposed procurement.”
17

15
Finally, as DaVinci had also sued individual
defendants in their individual capacities, the Ninth
Circuit held that because DaVinci voluntarily
dismissed the case against three of the named
individuals, the Bivens claims against the other
individual defendants were not part of the appeal and
did not exist. The Ninth Circuit thus failed to
address the issue of additional individual defendants
who the district court refused to allow an amendment
to the FAC although the identities of the additional
defendants had become known; they therefore
remained Does. The Ninth Circuit concluded that the
district court properly dismissed the case for lack of
subject matter jurisdiction.

16
REASONS FOR GRANTING THE WRIT
THIS COURT SHOULD GRANT REVIEW OF
THE COURT OF APPEALS’ DECISION
BECAUSE IT IS INCONSISTENT WITH
SUPREME COURT PRECEDENTS WITH
RESPECT TO THE WAIVER OF SOVEREIGN
IMMUNITY, DETENTION AND FORFEITURE
EXCEPTIONS TO THE FEDERAL TORT
CLAIMS ACT AND DENIES A VALID BIVENS
CLAIM TO BE HEARD IN FEDERAL
DISTRICT COURT
A.

Petitioner Has a Right to Have Its
Claims Heard in Federal District Court
Under Both Statute and Case Law

While there is little disagreement between the
parties in this case as to the basic facts, the United
States (and also referred to as the “Air Force”)
repeatedly sought to dismiss Petitioner DaVinci’s
(“DaVinci”) claims in federal district court for lack of
jurisdiction. The heart of the jurisdictional dispute
lies in the waiver of sovereign immunity provided
under the Federal Tort Claims Act (“FTCA”). 18 The
district court recognized this Court’s holding that
such waivers need to be expressed in statute, citing
Lane v. Penna. 518 U.S. 187, 192 (1996).
The district court dismissed DaVinci’s claim for
conspiracy related to abuse of process for lack of
subject matter jurisdiction even though DaVinci set
The relevant part of the FTCA provides the waiver for “injury
or loss of property .. . .caused by the negligent or wrongful act or
omission of any employee of the Government while acting within
the scope of his office or employment.” 28 U.S.C. § 1346(b)(1).
18

17
forth sufficient facts to support causes of action for
abuse of process. It is well-settled that, to support a
cause of action for abuse of process, a plaintiff must
plead two essential elements: that the defendant (1)
entertained an ulterior motive in using the process
and (2) committed a willful act in a wrongful manner.
DaVinci met this standard. The FAC identifies
both the ulterior motive for the Air Force’s actions—
obtaining the antennas without paying—and willful
acts committed in a wrongful manner—namely, the
misrepresentations made by Air Force and its agents
to DaVinci. On top of that, of course, the Air Force
threatened DaVinci with prosecution, surely a
wrongful act and an abuse of authority in this context.
The cases identified by the Air Force strongly
suggest that the Espionage Act (18 U.S.C. § 793(d))
was only meant to be applied in cases of actual misuse
of national security information or defense
equipment. 19 This is simply not the case here. The
cases cited by the Ninth Circuit involved classified or
militarized goods mistakenly sold by the Government.
The instant case involves unclassified hardware sold
as surplus “junk” with no mention of classification
until months after the filing of this suit.
For example, the Ninth Circuit’s reliance on
AST/Servo Sys., Inc. v. United States, 196 Ct. Cl. 150
(1971), is misplaced. In that case, the Government
acknowledged a “mistake” in the sale of classified
See Dubin v. United States, 153 Ct. Cl. 550 (1961) [Dubin I],
Dubin v. United States, 176 Ct. Cl. 702 (1966) [Dubin II],
AST/Servo Sys., Inc. v. United States, 196 Ct. Cl. 150 (1971), and
Int’l Air Response v. United States, 75 Fed. Cl. 604, 605 (2007).
19

18
goods which was quickly rectified. Here there is no
issue of mistake. The antennas were not classified.
Ever. They were not classified in manufacture. They
were not classified when the Air Force sold them as
surplus. The Air Force “classified” them only in
response to this suit, two years after their initial sale.
The Air Force wrongfully threatened DaVinci
with prosecution under the Espionage Act (18 U.S.C.
§ 793(d)), a law that has, among other things, been
used to recover goods of grave importance to national
security, not to seize items which have been bought
and sold among private companies for years prior to
the Government’s unlawful seizure. Use of the
Espionage Act (18 U.S.C. § 793(d)) in the instant case
was both fraudulent and only utilized as a way to
avoid the legitimate procurement of spare parts the
Air Force now wanted.
It was an abuse of
governmental power.
The district court’s dismissal of DaVinci’s claim
for conversion also constitutes reversible error. That
court relied in part on Aleutco Corp. v. United States,
244 F.2d 674 (3rd Cir. 1957), where the plaintiff
sought damages for conversion by the government of
war surplus materials it had purchased and alleged a
tortious exercise of dominion over its property by the
government.
The Third Circuit discussed the
jurisdictional issue and held that the FTCA action
was within the jurisdiction of the district court.
The Ninth Circuit subsequently approved this
principle from Aleutco recognizing that a plaintiff
could properly bring suit in the district court because
his claim sounded in tort, even though it could also

19
have been brought based on the terms of the
conveyance of an easement to the government.
As the Ninth Circuit noted, DaVinci could have
brought its claim in a different forum. This fact does
not mean, however, that the federal district court
lacks jurisdiction. The district court would only lack
jurisdiction if “the government’s liability depend[ed]
wholly upon” the contract implied in law or upon some
non-tortious claim. Love v. United States, 915 F.2d
1242, 1246 (9th Cir. 1989). The claim asserted here
depends on other factors which sound in tort, and
therefore the district court has subject matter
jurisdiction.
Moreover, the Court of Federal Claims lacks
jurisdiction over this case. “Section 1491(a) expressly
precludes the Court of Federal Claims from hearing
cases ‘sounding in tort.’” Crane v. United States, 2016
WL 6575093, at *2 (Fed. Cir. Nov., 7, 2016) (citing
Keene Corp. v. United States, 508 U.S. 200, 214
(1993). “Further, under the Federal Tort Claims Act,
jurisdiction over tort claims lies exclusively [emphasis
added] in the United States district courts. 28 U.S.C.
§ 1346(b)(1).” Id.
The attempt to recast DaVinci’s conversion claim
as a “takings claim,” is wrong as the government's
seizure was unauthorized, in which case the district
court, not the Court of Federal Claims, would possess
jurisdiction. Kam-Almaz v. United States, 682 F.3d
1364, 1371 (Fed. Cir. 2012). 20 The FAC must be read
in the manner favorable to DaVinci, and thus the
See also Microsoft Corp. v. ATech Corp., 855 F. Supp. 308, 311
(C.D. Cal 1994) where the district court finds “…there is in other
words, a form of extortion.”
20

20
proper reading of the FAC is an action in tort for
conversion.
Such a claim for conversion is not prohibited by
the FTCA’s requirement that the property must be
“seized for the purpose of forfeiture.” 21 The FTCA
only prohibits claims for the “detention of any goods,”
28 U.S.C. § 2680(c), while the FAC alleges conversion
as to the improper taking of the antennas by the Air
Force. The FAC states that the Air Force had no
intention of ever paying compensation to DaVinci,
indicating that they took the antennas for the sole
purpose of forfeiture.
Further the Ninth Circuit and the district court
are in error in their reliance on Foster v. United
States, 522 F.3d 1071, 1074 (9th Cir. 2008), in
attempting to characterize this case as one arising
“out of detention unless ‘solely for purposes of
forfeiture.’” In Foster, the Ninth Circuit held that the
government had seized the property for the purpose
of criminal investigation, not forfeiture, so the
"detention of goods" exception to U.S.C. § 2680(c),
applied. 22
That reasoning and conclusion do not apply here
as no criminal investigation whatsoever was involved.
The Air Force seized DaVinci’s property simply
because they wanted it as spare parts—DaVinci
engaged in no crime. No taxes or customs duties were
See CHoPP Computer Corp. v .United States, 5 F.3d 1344, 1347
(9th Cir. 1993).
21

In their ruling the district court also relies on Shavesteh v.
Raty, 404 F.App 298 (10th Cir. 2010), which is also not
applicable. This is yet another criminal case involving a
convicted drug dealer and the seizure of illicit drugs.

22

21
due, and no fact pattern in any of the cited cases is
even remotely analogous.
Having incorrectly concluded that this case “falls
within the detention exceptions to the FTCA,” the
district court considered whether the “detention” of
the antennas was “solely for the purposes of
forfeiture” in accordance with Foster (522 F.3d at
1074) and whether the Air Force may have had the
possibility of forfeiture in mind when they seized the
antennas, as an improper use of forfeiture
proceedings, citing Diaz v. United States, 517 F.3d
608, 613 (2nd Cir. 2008) and Smoke Shop LLC v.
United States, 761 F.3d 779 (7th Cir. 2014). The
applicability of these cases is tangential at best.
Despite the fact that there was nothing in the
record to support its conclusion and despite that fact
the record demonstrated the opposite, the district
court concluded that “the JASSM Antennas were not
seized solely for the purposes of forfeiture. They were
seized because they contained classified information
posing a danger to national defense.”
The district court’s finding is stupefying. When
the antennas were seized in September 2014, the Air
Force made no claim that the antennas were
“classified” or that they contained features affecting
national security. 23 Indeed, as noted supra, the Air
The single paragraph “Christmas letter” cited 18 U.S.C. §
793(d) as the purported authority for the seizure with no
mention that the antennas were classified. Indeed, if in fact the
antennas were actually classified at the time of their seizure,
they would have been marked and controlled as such. The
specific requirements for such control are set forth in DoD
5220.22-M, “National Industrial Security Program, Manual for
23

22
Force first asserted that they were classified only in
January 2017, more than three years later, when the
United States moved to dismiss the complaint. The
assertion with respect to classification appears only
in the Hemmingsen declaration in support of the
United States’ motion to dismiss.
By statute, Executive Order, departmental
directives, and regulations, the Air Force has specific
procedures for the manufacture and control of
hardware related to national security and the proper
classification thereof. 24 As discussed supra, there is
no evidence whatsoever that any of these procedures
was followed.
The antennas were never
manufactured, marked or controlled as classified
hardware. For some two years after their sale as
surplus “junk,” the Air Force made no effort to secure
or control the antennas, which they belatedly claim
were somehow “classified” and needed protection
from potential adversaries.
This fact—and it is a fact—is hardly surprising.
The Government does not operate in this way when
actual matters of national security are involved. The
actions of the Air Force in this case are nothing less
than a fraudulent farce undertaken to cover their
illegitimate conduct, which in itself is a violation of
Executive Order 13526.

Safeguarding Classified Information; Department of Defense,
DoDI 5205.11, Air Force Instruction 16-701, Management,
Administration and Oversight of Special Access Programs (18
February 2014).
24

Ibid.

23
The district courts’ treatment of the Espionage
Act cases is hardly more edifying. The Ninth Circuit
and the district court cite four cases—Dubin v. United
States, 153 Ct. Cl. 550 (1961) [Dubin I], Dubin v.
United States, 176 Ct. Cl. 702 (1966) [Dubin II],
AST/Servo Sys., Inc. v. United States, 196 Ct. Cl. 150
(1971), and Int’l Air Response v. United States, 75 Fed.
Cl. 604, 605 (2007)—that teach that the Espionage
Act (18 U.S.C. § 793) was only meant to be applied in
cases of actual misuse of national security
information or classified defense equipment. 25
Each of these cases involved classified goods
mistakenly or inappropriately sold by the
Government.
When the Air Force threatened
DaVinci with prosecution under the Espionage Act
(18 U.S.C. § 793(d)), there was no claim of
classification at all and no indication of what, if any,
criminal activity was involved that might justify
invoking this Act..
The district court notes that “plaintiff does not
direct the Court to any analogous case which has ever
preceded in United States District Court.” Here the
district court is correct – there is none. All of the
similar claims cases involving 18 U.S.C. § 793, such
as those cited supra, involved materials that were
classified at the time of seizure. At best, the
The radar units, power units, and radio receivers in Dubin I
and Dubin II had been marked as “classified” when the
Government mistakenly sold them (153 Ct. Cl. at 553); the goods
at issue in AST/Servo were also classified and had not been
demilitarized prior to sale or should have remained classified
(196 Ct. Cl. at 153-54). In both cases the Government recognized
the error promptly and moved to rectify the problem.
25

24
argument, is one of post hoc classification of the
antennas, for which there is no judicial precedent in
any jurisdiction. The case before this Court therefore
is a case of first impression.
Attempting to resolve this issue, the district court
recognized that “[p]laintff does not allege or argue
that the JASSM antennas are unrelated to national
defense.” (emphasis in the original). This double
negative makes no sense. There would be no need for
DaVinci to make such an argument. Each year the
Air Force buys billions of dollars of parts that are
related to national defense that are unclassified. 26
The district court also erred in holding that it
lacked subject matter jurisdiction “predicated upon a
challenge to Russell’s exercise of discretion in
classifying the JASSM Antennas,” citing 28 U.S.C. §
2680(a) and Loughlin v. United States, 286 F.Supp.2d
1, 23 (D.D.C. 2003). Again the district court misstates
or misinterprets the facts. Stephen Russell was not
the Assistant Secretary of the Air Force, but rather
the Director, Special Programs, working in the
Department of the Air Force.
DaVinci does not challenge Russell’s exercise of
discretion with respect to classification, but questions
why his letter, dated “July 2014” and “based on an
AFOSI request” with respect to the JASSM GPS
antennas,” was not brought forward until January
The district court does note that “classification does not appear
to be a prerequisite under 18 U.S.C. § 793(d)” but again fails to
find where the Air Force made any claim even remotely related
to national security at the time of the seizure or alleged possible
criminal activity prior to January 2017.
26

25
2017, and why the security actions mandated by
Executive Order and agency directive never took
place. 27
The district court speaks about the FCTA waiver
not being applicable to “claims based upon … [the
performance of failure to perform] a discretionary
function or duty . . . whether or not the discretion
involved be abused.” (Emphasis in the original).
Again the district court is in error; there was no
element of discretion involved on the part of the Air
Force agents. They wrongly engaged in an effort to
classify materiel in response to this lawsuit. The
discretionary function exception of 28 U.S.C. §
2680(a), therefore, is not applicable.
B. This Court Should Grant Certiorari
In Order to Insist on Proper
Application of the Civil Asset
Forfeiture Reform Act of 2000
The Civil Asset Forfeiture Reform Act of 2000,
Pub. L. No. 106-186, 114 Stat. 202, 18 U.S.C. § 983,
established a uniform process for determining if
property was subject to forfeiture. The Ninth Circuit
gives such short shrift to the applicability of this Act,
the failure of the Government to meet its burden to
show, by a preponderance of the evidence, that the
property in question is subject to forfeiture under 18
U.S.C. § 983(c)), or to show whether the forfeiture was
in fact forfeiture or seizure that Petitioner is left
scratching its head as to how to understand the lower
court’s reading of the law. This Court should find that
the Civil Asset Forfeiture Reform Act of 2000 requires

26
government agents to follow its procedures to the
letter, allowing complainants adequate opportunity to
make their claim and, if they prevail, to recover their
property. In this case, no such opportunity was
offered and recovery proved impossible because the
Government used and used up the antennas.
C. This Court Should Grant Certiorari
to Recognize Petitioner’s Valid Bivens
Claim as the District Court Failed to
Grant a Request for Leave to File an
Amended Complaint Naming
Additional Individual Defendants
The seizure of the antennas under threat of
criminal prosecution was a violation of DaVinci’s
Fourth Amendment right against unreasonable
seizures of property. 28 DaVinci would not have
surrendered the property to the Air Force agents but
for the wrongful inducement and coercion of the
agents through their misrepresentation of their
lawful authority to seize the antennas.
28 There is extensive legal scholarship in this area. See, for
example, Ahkil Reed Amar, "Fourth Amendment First
Principles." 107 HARVARD L. REV. 757 (1994), Anthony G.
Amsterdam, "Perspectives on the Fourth Amendment." 58
MINNESOTA L. REV. 349 (1974), Phillip A. Hubbard, MAKING
SENSE OF SEARCH AND SEIZURE LAW, A FOURTH AMENDMENT
HANDBOOK, (2nd ED.)(2015), WAYNE R. LaFave, SEARCH AND
SEIZURE: A TREATISE ON THE FOURTH AMENDMENT (5TH ED.),
William J. Stuntz, "Warrants and Fourth Amendment
Remedies." 77 VIRGINIA LAW REVIEW 881 (1991), and Silas J.
Wasserstrom, and Louis Michael Seidman, "The Fourth
Amendment as Constitutional Theory." 77 GEORGETOWN LAW
JOURNAL 19 (1988).

27
In Bivens v. Six Unknown Named Agents of Fed.
Bureau of Narcotics, 403 U.S. 388 (1971), this Court
recognized a cause of action under the Fourth
Amendment for damages. Here this Court held that
a valid claim for damages could exist in the event of
injury resulting from actions by federal officers in
violation of the Fourth Amendment's prohibition
against unreasonable searches and seizures. 29
Several “Bivens” cases have been brought before
the courts, and this Court has subsequently narrowed
the applicability of the original Bivens decision. At
the same time, in Millbrook v. United States, 569 U.S.
50 (2013), this Court held that the Government may
be held liable for abuses intentionally carried out by
law enforcement officers in the course of their
employment, such as the AFOSI agents here.
Most recently, in Ziglar v. Abbasi, 582 U.S. ___,
137 S. Ct. 1843 (2017), this Court prescribed a
controlling test for whether a case presents a new
Bivens context:
The proper test for determining whether a
case presents a new Bivens context is as
follows.
If the case is different in a
meaningful way from previous Bivens cases
decided by this Court, then the context is new.
Without endeavoring to create an exhaustive
list of differences that are meaningful enough
to make a given context a new one, some
Subsequently this Court allowed Bivens-type remedies twice
more, in Davis v. Passman, 442 U.S. 228 (1979) and in Carlson
v. Green, 446 U.S. 14, (1980). Bivens actions have since been
expanded beyond the Fourth Amendment context of
unreasonable searches or searches without a warrant.
29

28
examples might prove instructive. A case
might differ in a meaningful way because of
the rank of the officers involved; the
constitutional right at issue; the generality or
specificity of the official action; the extent of
judicial guidance as to how an officer should
respond to the problem or emergency to be
confronted; the statutory or other legal
mandate under which the officer was
operating; the risk of disruptive intrusion by
the Judiciary into the functioning of other
branches; or the presence of potential special
factors that previous Bivens cases did not
consider. Ziglar, 137 S. Ct. at 1859-60.
While Bivens claims cannot be made to hold
officers responsible for acts of their subordinates, the
Bivens remedy remains applicable in this case where
no allegation is made to hold superiors responsible for
the actions of their subordinates and where the claims
asserted fall within the Ziglar standards. 30
Bivens and Ziglar allow a private right of action
for damages against a federal official for violating a
federal constitutional right if the constitutional right
that was violated is one of the constitutional rights
already recognized by the Court. Such rights include
the Fourth Amendment right against warrantless
search and seizure without probable cause (Bivens)
and a claim under the Fifth Amendment due process
30 In this case, moreover, the Air Force agents were not executing
any official policy, nor were they under orders from any higher
authority to violate DaVinci’s constitutional rights. They did this
on their own.

29
clause (Davis).
In addition to the cause of action relating to one
of these rights, a successful Bivens claim must not
arise under “a new Bivens context” (Ziglar). 31
Further, the claim must involve no “special factors
that counsel hesitation in the absence of affirmative
action by Congress.” In Ziglar, the Court left open the
possibility that a new Bivens context within an
existing Bivens right may be recognized if there are
no special factors counseling hesitation in the absence
of affirmative action. 32
Under Ziglar, Bivens allows a private right of
action for damages against a federal official for
violating a federal constitutional right if (A) and
either (B)(1) or (B)(2) below are true: (A) The
constitutional right that was violated is one of the
three constitutional rights already recognized by the
Supreme Court. These three rights include the
Fourth Amendment right against warrantless search
31 To the extent that this presents a new context, it passes the
tests suggested by this Court in Ziglar, including the low rank
of the agents involved and that it did not involve their superiors
or any official Air Force policy. Further there is no evidence of
any disruptive intrusion by the Judiciary into the functioning of
other branches or the presence of potential special factors that
previous Bivens cases did not consider.

In Ziglar, this Court was dealing with the post-9/11 detention
of terrorists captured outside the United States.
It is not
difficult to distinguish the instant case that does not involve any
official policy to avoid the procurement process by having federal
agents seize property under color of law with threats of criminal
prosecution and a post-hoc cover up with false claims of
classification in actual violation of established policy, statute,
and Executive Order.
32

30
and seizure without probable cause (Bivens), a Fifth
Amendment due process clause (Davis), and an
Eighth Amendment right (Carlson). In addition to
the cause of action relating to one of these three
rights, a successful Bivens claim must have one of the
following two features: (B)(1) The claim must not
arise under “a new Bivens context” (Ziglar); or (B)(2)
The claim must involve no special factors that counsel
hesitation in the absence of affirmative action by
Congress.
DaVinci’s Fourth Amendment Bivens claim
involves neither a new context nor implicates any
special factors that counsel hesitation in the absence
of affirmative action by Congress. In contrast, the
Fifth Amendment Bivens claim, discussed below,
presents a new context, but has no special factors
counseling hesitation. Both claims are viable, and the
district court erred when it granted the motion to
dismiss. The Fourth Amendment Bivens Claim Does
not present a new context and no special factors
counsel hesitation in the absence of Congressional
action.
Thus, the right to Fourth Amendment protection
against warrantless searches and seizures is clearly
recognized under Bivens and this Court continues to
follow it. While Ziglar defines with greater specificity
the circumstances in which Bivens remedies are
available, this Court notes that the opinion “is not
intended to cast doubt on the continued force, or even
the necessity, of Bivens in the search-and-seizure
context in which it arose.” Bivens and its progeny
vindicate the Constitution by allowing some redress
for injuries, and it provides instruction and guidance
to federal law enforcement officers going forward.

31
Here, the question can certainly be raised as to
whether the facts present a “new context” or an
existing one under Bivens. The facts of this case are
sufficiently similar to those originally considered by
the Court as not to represent a new context. Even if
one might see this case as presenting a “new context,”
the claims asserted pass the Ziglar tests because, as
the Court noted, a myriad of special factors can
distinguish a given case from one of the contexts
recognized by the Court.
The Fifth Amendment prohibits federal officials
from depriving any person of property without due
process of law. DaVinci asserts a claim for a Bivens
remedy under the Fifth Amendment. This Court
previously accepted a Fifth Amendment due process
clause claim in the context of gender discrimination
in Davis. 33
The purpose of Bivens remedies is to deter federal
agents from violating certain constitutional rights as
they act within the scope of their employment. Bivens
This Court declined to recognize a Bivens right in other due
process contexts, such as United States v. Stanley, 483 U.S. 669
(1987), refusing to grant a Bivens action to serviceman who sued
military officers and civilian superiors for secret administration
of LSD as part of an Army experiment. This Court also denied
military officers relief under Bivens for race-discrimination in
Chappell v. Wallace, 462 U.S. 296 (1983). In each of these cases,
the fact that military officers were making the Bivens claims
played a significant role in the Court’s reasoning. This case is
distinguishable from Chappell and Stanley because DaVinci is
not a military officer. Like the Fourth Amendment Bivens case,
the Fifth Amendment case, Passman, provides even fewer
similarities—none whatsoever, in fact—than the Bivens case
offers for this case.
33

32
remedies are only available against particular
offending officers, and cannot be asserted to hold
officers responsible for acts of their subordinates.
This is not the case in the present matter, where
federal agents violated DaVinci’s Fourth Amendment
rights against unlawful seizures by taking DaVinci’s
antennas from without a warrant.
Given their deference to the Government’s
characterization of what happened in this case, both
the district court and the Ninth Circuit gave short
shrift to DaVinci’s Bivens claim. The district court
granted the motion to dismiss on the grounds that the
motion only included the United States Government
and none of the named or unnamed individual
defendants who violated DaVinci’s Fourth and Fifth
Amendment Constitutional rights.
The district court’s interpretation that the motion
to dismiss involves only the United States
Government, and not the Air Force agents who
violated DaVinci’s constitutional rights, flies in the
face of any coherent understanding of the facts of this
case. The United States’ motion repeatedly refers to
the interests of the Government and its federal
employees, stating, for example, that “this court lacks
subject matter jurisdiction over any alleged or implied
constitutional claims because the United States has
not consented to its official being sued in their official
capacities.” Such statements are not consistent with
the decisions of this Court.
As this Court has held, claims for constitutional
torts committed by government employees in their
official capacities do lie. The United States in no way
intended their motion to dismiss not to cover the

33
named employees who acted as agents of the
Government. The Government’s motion to dismiss
is directed against the First Amended Complaint
against [d]efendants United States of America;
Michael Christmas . . . , Rodney Lewis . . ., Joel S.
Russell . . ., and Does 1 through 10, inclusive
(collectively “Defendants”) . . . .”
Further, the district court’s treatment of the
motion to dismiss departs from its prior treatment of
the appellant’s Bivens claim. In the district court’s
order granting the initial motion to dismiss, the
district court, “in the interests of judicial efficiency,”
evaluated the merits of a prospective Bivens claim
under a Fifth Amendment takings clause argument.
The district court rightly noted that, because “a
statutorily defined mechanism” for seeking just
compensation for public takings existed under the
Tucker Act, (quoting Anoushiravani v. Fishel, No. 04cv-212-MO 2004 WL 1630240, at *9 (D. Or. July 19,
2004)), “an amendment to the pleadings appears
futile.” In granting the original motion to dismiss, the
district court predicted that a Bivens Fifth
Amendment takings clause suit would be foreclosed
by the Tucker Act, and not that the claim was
impossible if the motion to dismiss only applied to the
United States and not the other federal employees in
the suit.
Nevertheless, if this case was found to present a
new Bivens context, no special factors exist to counsel
judicial hesitation. In Ziglar this Court left open the
possibility that a new Bivens context within an
existing Bivens right may be recognized if no special
factors counsel hesitation in the absence of

34
affirmative Congressional action.
In clarifying
“special factors counseling hesitation,” Ziglar this
Court offers the following:
This Court has not defined the phrase “special
factors counselling hesitation.” The necessary
inference, though, is that the inquiry must
concentrate on whether the Judiciary is well
suited, absent congressional action or
instruction, to consider and weigh the costs
and benefits of allowing a damages action to
proceed. Thus, to be a ‘special factor
counselling hesitation,’ a factor must cause a
court to hesitate before answering that
question in the affirmative. Ziglar, 137 S. Ct.
at 1858-59.
It is important to note that in Ziglar this Court
was dealing with one more in a series of difficult cases
dealing with the post 9/11 detention of terrorists
captured outside the United States and various high
level “executive policies” adopted by the federal
government to deal with their detention. 34 It is not
difficult to distinguish the present case from Ziglar.

In Ziglar the Court noted that the relevant special factors for
a Bivens-type remedy should not be extended to the claims
challenging the confinement conditions imposed pursuant a
formal policy adopted by the Executive in the wake of the
September 11, 2001 terrorist attacks. The allegations in Ziglar
were that this policy high-level policy violated due process and
equal protection rights by holding them in restrictive conditions
of confinement, and allegations of Fourth and Fifth
Amendments violations by subjecting the victims to frequent
strip searches. Here this Court noted that the proper balance in
34

35
The present case does not involve any official or
high-level executive policy to avoid the legitimate
procurement process by having federal agents seize
property under color of law with threats of criminal
prosecution under the Espionage Act (18 U.S.C. §
793(d)). Instead, this case involves an agent-inspired
post-hoc cover up that used false claims of
classification in violation of established policy, statute
and Executive Order.
The right to Fourth Amendment protection
against warrantless searches and seizures is clearly
recognized under Bivens. Ziglar, which significantly
constricts the availability of Bivens remedies, notes
that the opinion “is not intended to cast doubt on the
continued force, or even the necessity, of Bivens in the
search-and-seizure
context
in
which
it
arose. Bivens does vindicate the Constitution by
allowing some redress for injuries, and it
provides instruction and guidance to federal law
enforcement officers going forward. The settled law
of Bivens in this common and recurrent sphere of law
enforcement, and the undoubted reliance upon it as a
fixed principle in the law, are powerful reasons to
retain it in that sphere.
This Court in Ziglar emphasizes that the
necessary inference is whether “the Judiciary is well
suited, absent congressional action or instruction, to
consider and weigh the costs and benefits of allowing
situations like this, between deterring constitutional violations
and freeing high officials to make the lawful decisions necessary
to protect the Nation in times of great peril, is one for the
Congress to make, not the Judiciary.

36
a damages action to proceed.” Given the presence of
arguably classified devices and the fact that Air Force
agents are involved, there is some argument that a
federal court is not ideally suited to weigh the costs
and benefits of allowing the action to proceed. At the
same time it is the case that this is exactly what
federal courts do. Statutes, policies and procedures
are in place and it is the role of the courts to consider
the facts and rule if actionable violations have taken
place.
Claims of “national security” are by definition
serious and any use or misuse must be considered
seriously. They cannot provide the government a
blank check to dodge judicial review, particularly
when such a claim is based on false, fraudulent and
admittedly post hoc claims of “classification.” This is
a very different national security context than that
raised by Iqbal and Ziglar.
The Fifth Amendment to the Constitution
prohibits federal officials from depriving any person
of property without due process of law, and here
DaVinci also makes claim for a Bivens remedy under
the Fifth Amendment. This Court has previously
acknowledged a due process clause right in the
context of gender discrimination that was codified in
Davis where an administrative assistant sued a
Congressman for firing her because she was a woman.
Unlike the Fourth Amendment Bivens case, Davis
provides few similarities—none whatsoever—to the
instant case. Accordingly, this case presents a new
Bivens context. A Fifth Amendment Bivens claim
may present a “new context” under Ziglar, so long as
no special factors counsel judicial hesitation. In

37
several cases, this Court has considered whether
Bivens claims involving the U.S. military present a
special circumstance that should prompt hesitation.35
This Court in Stanley clarifies that Bivens claims
against military officers by civilians do not, on that
basis alone, provide any reason for a court to hesitate
from allowing a Bivens remedy. Here, DaVinci is not
a military officer and so his Bivens claims involve
neither a special factor counseling hesitation for the
fact that the offending officers were members of the
Air Force nor for the post-hoc claims that the
antennas included classified features or information,
discussed supra.
Like the Fourth Amendment Bivens case, the
Fifth Amendment case on record, Passman, provides
even fewer similarities—none whatsoever, in fact—as
the Bivens case offers this case in the Bivens context.
A Fifth Amendment Bivens claim may present a “new
context” under Ziglar. For these reasons the present
case likely presents special factors, but none that
would cause a court to hesitate before granting a
Bivens remedy in this current context.

This Court in United States v. Stanley, 483 U.S. 669 (1987)
refused to grant a Bivens action to U.S. serviceman who sued
military officers and civilian superiors for secret administration
of LSD as part of an Army experiment. This Court also denied
military officers suit under Bivens for race-discrimination in
Chappell v. Wallace, 462 U.S. 296 (1983).

35

38
CONCLUSION
For all these reasons, this Court should grant the
petition.

Respectfully Submitted,
ABRAHAM R. WAGNER
Counsel of Record
CHARLES NICHOLAS ROSTOW
LAW OFFICE OF ABRAHAM WAGNER
1875 Century Park East, St. 700
Los Angeles, CA 90067
(310) 552-7533
abraham.wagner@gmail.com

